<html>
<title> - [H.A.S.C. No. 113-88] RECENT DEVELOPMENTS IN AFGHANISTAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 113-88]

                   RECENT DEVELOPMENTS IN AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 13, 2014


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         ______

                       U.S. GOVERNMENT PRINTING OFFICE 

87-620                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 
  202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>
  
 












                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
               Alexander Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk


























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, March 13, 2014, Recent Developments in Afghanistan.....     1

Appendix:

Thursday, March 13, 2014.........................................    37
                              ----------                              

                        THURSDAY, MARCH 13, 2014
                   RECENT DEVELOPMENTS IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Dunford, Gen Joseph F., USMC, Commander, International Security 
  and Assistance Force and U.S. Forces-Afghanistan...............     4

                                APPENDIX

Prepared Statements:

    Dunford, Gen Joseph F........................................    46
    McKeon, Hon. Howard P. ``Buck''..............................    41
    Smith, Hon. Adam.............................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................    65
    Mr. McKeon...................................................    65
    Mrs. Walorski................................................    66






                   RECENT DEVELOPMENTS IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 13, 2014.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen. The committee meets to 
receive testimony on recent developments in Afghanistan. 
Joining us today is General Joseph Dunford, the Commander of 
International Security and Assistance Force, ISAF, and U.S. 
forces in Afghanistan.
    General, this committee knows that your mission in 
Afghanistan is at a critical juncture, and we appreciate you 
taking time to come home. We know that you have got lots of 
demands over there. It gives us an important opportunity to 
find out what is going on. We want to thank you for your superb 
leadership and the things that you have been able to accomplish 
over there.
    Today, approximately 34,000 U.S. troops and approximately 
19,000 international troops from 49 nations continue to work as 
part of an international coalition to help Afghanistan continue 
its transition to self-governance and become a secure and 
stable nation.
    Yet, as we convene this hearing, the future of our 
commitment to Afghanistan is uncertain. President Karzai is 
undermining his own people's security. He refuses to sign the 
bilateral security agreement [BSA].
    Last month, he broke an international commitment by 
releasing 65 terrorists held in Afghan custody, all of whom 
were associated with groups who have killed both U.S. troops 
and Afghan civilians, including the Taliban, Al Qaeda, and 
Haqqani Network.
    Last week, we learned President Karzai was disbanding the 
security force that currently provides static security at U.S. 
bases and logistics convoys in Afghanistan. Afghans and 
Americans alike should be outraged by these tactics.
    But we need not pin our hopes on one man, especially one 
who will no longer be President in just a few months. The 
Afghan people continue to be amazing allies. The Loya Jirga 
supported the BSA and said it should be signed immediately. 
That is 2,500 leaders from all around the country representing 
the people of that nation. Polls show that 70 percent of 
Afghans want us to stay.
    There is also an election coming up, and many of the 
presidential candidates--or most of them--publicly support the 
BSA with the United States. Afghanistan and the region are 
extremely complex; nonetheless, the United States military 
continues to execute their mission with skill.
    And we continue to have vital national security interests 
in the region. We must ensure that Al Qaeda cannot use 
Afghanistan as a launching pad to attack the United States 
again. This requires a national commitment to see the mission 
through. That starts with the President.
    I recently gave a speech about Afghanistan, and I noted 
that counterinsurgencies have two fronts--the one out there and 
the one right here. The troops and you, General, have held the 
line out there. The President must hold the line here.
    By rarely discussing what is at stake in Afghanistan and 
allowing public support for the war to erode, the President has 
lost political capital that could have been used to solve a 
number of problems.
    On the other hand, I believe a safe and secure Afghanistan 
is within our grasp. The biggest uncertainties we face in 
Afghanistan are no longer military.
    The President has sustained international support for this 
new democracy. He went out and obtained international 
commitments for billions of dollars in aid to help lift them 
out of despair.
    He kept the coalition of countries willing to send troops 
to fight with us and, as a direct result of his military 
strategy, Afghanistan is freer and America is safer.
    For that, I congratulate him. That is why I think he should 
talk to the American people about it and take credit for that.
    General Dunford, I hope you can help remind the American 
people and our political decisionmakers here in Washington what 
is at stake. I expect that you will provide this committee, as 
you do with the President, your best military judgment on the 
post-2014 mission set and associated presence necessary to 
continue fighting terrorist threats and to sustain a secure 
environment for the Afghan people. And I look forward to your 
testimony.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]
    Mr. McKeon. Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I want to join you in welcoming General Dunford here before 
our committee, recognizing the hard work you have to do in 
Afghanistan and appreciating you taking the time to come back 
and keep us informed, because that is part of the mission as 
well, is making sure that Congress knows what is going on. And 
I really appreciate you taking the time to do that.
    And I also congratulate you and the forces over there that 
have, you know, fought so well for so long and the progress 
that has been made. As the chairman mentioned, we are down to 
34,000 U.S. personnel from a peak of just over a hundred 
thousand; and, yet, during that timeframe, the security 
situation has arguably gotten at least slightly better. It 
certainly has gotten no worse, which shows that the transition 
to Afghan responsibility for security is, in fact, working.
    And the only reason that transition is working is because 
of the hard work that you, the people who serve under you, and 
our coalition partners have done to train that force and, I 
think, as importantly, to be willing to let them take over, 
knowing that, you know, given our military is the most capable 
in the world, there is no way that anyone we turn a security 
job over to is going to do as well as we would.
    But we have to do it because they have to be responsible 
for security in their own country. Long term, a foreign 
occupying force is not going to be able to bring security to 
Afghanistan. It is going to have to be locally driven. You made 
the tough decisions to begin that transition and, by and large, 
that transition is working.
    Now, we don't have any illusions here. There is no time 
soon that Afghanistan is going to be, you know, a peaceful 
place. There are still too many factions, still too much 
violence, and there will be long term. Our goal here is not to 
completely eliminate the insurgency in Afghanistan.
    Our goal is to have a strong enough Afghan security force 
and a strong enough Afghan government that it can stand, that 
it can make sure that it keeps down that insurgency and, as the 
chairman mentioned, keeps Al Qaeda and other affiliated groups 
from being able to once again find a secure base inside of that 
country. And with that goal in mind, I think we are making an 
enormous amount of progress.
    Now, the key is to successfully complete that transition. 
And for years now I have been a strong advocate of drawing down 
our presence in Afghanistan. I have not wanted us to stay there 
as long as some others have or in as great of numbers.
    But, nonetheless, I recognize that we have to do that 
responsibly. If in our desire to be rid of this difficult 
problem we were simply to rush towards the exits, we would 
create an even bigger problem. And I think we have done that. I 
think we are moving in a responsible direction.
    But as the chairman mentioned, we now face some significant 
challenges in completing that, and I would hate to see us, you 
know, lose that orderly transition in the final months and 
years of it.
    President Karzai presents the biggest challenge there. We 
have a bilateral security agreement that the overwhelming 
majority of Afghans support, but the President refuses to sign. 
We need that bilateral security agreement.
    One of the things I will be very interested in hearing your 
opinion on is if we can, in fact, wait for the next President. 
The elections are, as mentioned, on April 5. That is the other 
big part of the transition. This will be the first time since 
the Taliban fell that we will have a transition of government 
in Afghanistan, which is always a tricky business.
    So doing that successfully, getting a BSA in place, I think 
are critical, because I do think--if at the end of 2014 all 
U.S. and coalition troops were pulled out, I think it would be 
a disaster.
    We need to continue an orderly transition to do that. It 
seems like the number of troops--somewhere between 8,000 and 
12,000, as has been discussed--makes a great deal of sense, to 
continue with the training mission, to continue support, and 
continue with the counterterrorism mission.
    If for some reason we can't do that, if the BSA doesn't get 
signed, I think it will be a huge disaster for Afghanistan and 
that region and our interests. So I hope we can get there.
    I very much appreciate your leadership and the leadership 
of--frankly, of all who have been involved in this, gosh, over 
12-, 13-year conflict now. After that amount of time, after the 
sacrifices that so many have made, I think it is absolutely 
critical that we get it right as we complete that transition.
    I look forward to your testimony explaining to us how we 
can best do that and how we can support you in that effort.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 43.]
    The Chairman. Thank you.
    General, you have provided your recommendation for U.S. 
troops to the President. As long as you have come this far, we 
ought to hear your testimony before I jump into questions. 
Excuse me, General. The time is yours.

     STATEMENT OF GEN JOSEPH F. DUNFORD, USMC, COMMANDER, 
  INTERNATIONAL SECURITY AND ASSISTANCE FORCE AND U.S. FORCES-
                          AFGHANISTAN

    General Dunford. Thank you, Chairman.
    Good morning, Chairman McKeon, Ranking Member Smith, 
distinguished members of the committee.
    I do appreciate the opportunity to testify this morning and 
to represent the men and women of the United States Forces-
Afghanistan [USFOR-A]. Their courage, commitment, and their 
performance are a direct reflection of your support, and I am 
confident that no force has ever been better trained and 
equipped.
    We are now in the final year of the combat mission in 
Afghanistan, a mission to deny safe haven to Al Qaeda 
terrorists who attacked our Nation on 9/11. We recognize that 
our vital national interests are best served by a stable, 
secure, unified Afghanistan from which terrorism cannot 
emanate.
    We have accomplished much in pursuit of those ends. Since 
9/11, forces have placed extraordinary pressure on Al Qaeda and 
extremist networks in Afghanistan. Today, as a result of those 
efforts, Al Qaeda terrorists are focused on survival rather 
than on planning attacks against the West.
    Since 9/11, and with increased emphasis beginning in 2009, 
we have focused on developing Afghan National Security Forces. 
Today, as a result of those efforts, capable and confident 
Afghan forces are securing the Afghan people and the gains that 
we have made over the past decade.
    Since 9/11, we have worked to improve the daily lives of 
the Afghan people. Today, as a result of those efforts, Afghans 
have increased access to clean water, electricity, new roads, 
and education.
    But more important than any sign of progress in 
Afghanistan, the Afghan people have something today they didn't 
have in 2001. They have hope for the future.
    We have paid the price for those achievements; 1,796 
Americans and thousands more Afghans and members of the 
coalition have made the ultimate sacrifice. We vow to give 
their sacrifice meaning and to never forget them or their 
families.
    Some people have questioned our progress and pointed out 
that the overall security situation in Afghanistan didn't 
really change from 2012 to 2013. That is true.
    And when put into perspective, it is also extraordinary 
because security remained roughly the same with Afghans leading 
and with over 50 percent of the coalition redeploying.
    After watching Afghan forces respond to a variety of 
challenges since they took the lead in June, I don't believe 
that the Taliban insurgency represents an existential threat to 
them or the government of Afghanistan.
    I am also confident that they can secure the upcoming 
presidential election and the nation's first democratic 
transfer of power. Yet, to make our progress enduring, work 
remains to build the long-term sustainability of the Afghan 
forces.
    Although the Afghans require less support in conducting 
security operations, they still need assistance in maturing the 
systems, the processes, and the institutions necessary to 
support a modern national army and police force.
    They also need continued support in addressing capability 
gaps in aviation, intelligence, and special operations. To 
address these gaps, a train, advise, and assist mission will be 
necessary after this year to further develop Afghan self-
sustainability.
    A continued counterterrorism mission will also be needed to 
ensure Al Qaeda remains focused on survival and not on 
regeneration. Without continued counterterrorism pressure, an 
emboldened Al Qaeda will not only begin to physically 
reconstitute, but they will also exploit their perceived 
victory to boost recruitment, fundraising, and morale.
    In closing, I think it is fair to ask if we are winning in 
Afghanistan. And I believe the answer is yes. And several facts 
allow me to say that with confidence.
    First and foremost, our efforts in Afghanistan have 
pressured the terrorist network and have, in fact, prevented 
another 9/11.
    Second, we have built Afghan security forces that, with 
increasingly reduced levels of support, are capable of 
providing security and denying terrorists safe haven.
    Third, we are providing a stabilizing influence in a region 
that is providing the time and space for a wide range of 
complex issues to be addressed.
    And, finally, as a result of our efforts, the Afghan people 
face a decade of opportunity within which they can determine 
their own future free of the brutality and the intolerance of 
the Taliban. Despite all the skepticism surrounding our 
mission, that looks like winning to me.
    Thank you again for the opportunity.
    And, Chairman, I look forward to the questions.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 46.]
    The Chairman. General, you have provided your 
recommendation for U.S. troops to the President for the post-
2014 mission set, which includes the training, advising, and 
the things that you just talked about, assisting the ANSF 
[Afghan National Security Forces] in their counterterrorism and 
force protection.
    At what level of residual U.S. troop presence would you be 
unable to conduct the train, advise, and assist mission down to 
the core level of the ANSF?
    General Dunford. Chairman, last year, in February, the 
defense ministers met in Brussels and identified a mission with 
a range of forces from 8,000 to 12,000. That was just NATO 
[North Atlantic Treaty Organization] trainers. A number over 
and above that would be part of the counterterrorism mission.
    I am comfortable that, within that range of numbers, we can 
effectively conduct train, advise, assist at the core level and 
get after that issue of self-sustainability that I mentioned in 
my opening remarks.
    The Chairman. Thank you.
    Should the counterterrorism component of the post-2014 
mission include going after the Haqqani Network in addition to 
Al Qaeda?
    General Dunford. Chairman, my assessment is that the focus 
of a counterterrorism mission post-2014 would be Al Qaeda. But 
in order to maintain viability of the force, we clearly need to 
protect the force--and viability of our bases, we need to 
protect the force.
    In that context, my assessment is that going after Haqqani 
would be necessary because that will be the greatest threat to 
the force in a post-2015 environment and, in my assessment, 
will remain the most virulent strain of the insurgency.
    The Chairman. And should the ANSF be maintained at its 
352,000 surge capacity beyond 2014? And, if so, how long?
    General Dunford. Chairman, right now my assessment is that 
at least through 2018 it ought to be maintained at 352,000.
    That is based on analysis done--independent analysis done 
by the Center of Naval Analysis, directed by Congress. It is 
based on studies done by the Center of Army Analysis that for 
the last 2 or 3 years has worked with us to determine the right 
size of the force. And it is based on also our own assessment.
    And if I could just come back to the Haqqani Network 
question, the important thing is for the committee to realize 
that today we are not conducting any unilateral operations in 
Afghanistan.
    All the operations are being led by Afghan forces, with the 
exception of our own force protection operations, sustainment, 
and redeployment operations. So when I talk about 2015 and the 
need to go after the Haqqani and other organizations, my 
assessment is that would be by and large done by, with, and 
through Afghan forces.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    General, how would you assess at this point the strength of 
the Taliban and the broader insurgency?
    As has been mentioned, since we have drawn down and the 
Afghans have taken over responsibility, there has not been a 
significant uptick in violence. Most of the confrontations that 
have come have been successful for the Afghans.
    There is some speculation that the Taliban are choosing not 
to do a full-scale confrontation because they are waiting, 
basically, for us to leave, and there is a whole lot of 
speculation around this.
    What is your assessment at this point both of the current 
strength of the insurgency and how that is likely to adjust 
once we get to the end of 2014, regardless, frankly, of--you 
know, let's assume we keep the 8,000 to 12,000, but we have 
drawn down significantly as a result of that. Where do you see 
the insurgency going now and then?
    General Dunford. Thanks, Congressman.
    I think the best thing to do is to go back and take a look 
at what the Taliban has tried to do over the past several 
months and what they have been able to do, in answering that 
question.
    Last spring they came out with their campaign objectives 
for the summer of 2013. They intended to crush the spirit and 
will of the Afghan forces. They intended to seize various 
district centers in order to make a statement of their 
dominance over the Afghan security forces.
    They intended to create a perception of insecurity across 
the country and to disrupt the political process that began 
with the announcement of candidates in the fall. And I would 
summarize last summer by saying that they were unsuccessful in 
doing that.
    This fall they clearly made an effort to disrupt the Loya 
Jirga, where thousands of people came to Kabul to meet to 
discuss the bilateral security agreement. We knew from 
intelligence that there were a number of very, very capable 
threat streams that had intention to disrupt that event.
    They were unsuccessful in doing that because the Afghan 
security forces were able to secure the event and, also, to 
disrupt the enemy with activity surrounding the Kabul area.
    Similarly, last week there was a Ghazni Islamic festival. 
Six thousand people from throughout the region came to 
Afghanistan. The enemy had an intention to disrupt that event. 
They were unsuccessful once again because of the Afghan 
security forces.
    Physically, I believe today the Afghan security forces have 
what I would describe as tactical overmatch against the 
Taliban. What the Taliban have left remaining are some 
psychological factors, and not the least of which is the one 
you mentioned, Congressman, which is they expect us to leave at 
the end of 2014. And from my perspective, they draw strength 
from that.
    In the rank-and-file fighters today, that is the message 
they have received from the Taliban leadership, is that this 
summer is very important, the coalition is leaving, the Afghans 
won't have the support of the coalition this year, they will be 
gone by the end of 2015. And I think they draw strength from 
that.
    My sense is that, if a BSA is signed, an enduring presence 
decision is made, we keep our commitments to Chicago and Tokyo, 
which will resource Afghanistan post-2014, the final remaining 
thing the Taliban have today, which is those psychological 
factors in their favor, they won't have those anymore.
    Mr. Smith. And one of the big issues for me is the support 
that the Afghans are going to have as we draw down, once we get 
down to that 8,000, 12,000 level.
    In particular, you know, in all of these fights, the close 
air support that we can provide is enormously important, and 
the Afghan people, the Afghan military, just--they don't have 
hardly any of that type of close air support.
    Once we get to the end of 2014, is it anticipated that we 
are going to be able to continue to have some C-17s, 
helicopters, some of our own equipment there that will be able 
to provide that close air support?
    Because I know that the Afghans--they have got like four 
attack helicopters in the entire country right now and some 
others and their jet fighters are not going to be online until 
2017, 2018, something like that.
    How do you see--number one, how critical is the air support 
issue going forward? And, number two, how do you envision that 
being provided for the Afghan forces 2015 and beyond?
    General Dunford. Congressman, thanks.
    The Afghans, as you pointed out, they won't have their 
fixed-wing capability until 2015. We actually this year will 
begin to deliver the A-29, which is going to be their attack 
aircraft. There will be 20 of those delivered. And we will 
complete delivery of those in 2015. But the full aviation 
enterprise won't be integrated for some time after that.
    Mr. Smith. Training the pilots and basically----
    General Dunford. Training the pilots and the logistics 
enterprise.
    What is important is that we also have worked very hard to 
deliver a very capable artillery force to the Afghans, mortars 
as well as a mobile strike vehicle. All of those are intended 
to provide fire support for the Afghans to compensate for a 
lack of close air support.
    Whether or not we will provide close air support in 2015 is 
a policy decision. That decision has not been made yet by the 
President.
    The assessment is that we will do all we can to make sure 
the Afghans can survive on their own, keeping in mind the 
Taliban also don't have any aviation support.
    And, frankly, the Afghans have an extraordinary asymmetric 
advantage in the combined arms capability that we have 
delivered to them over the last couple of years, again, not the 
least of which is D-30 artillery, the mortars, and the mobile 
strike vehicle.
    Mr. Smith. Can you give us also--just last question--a 
quick word on Pakistan, how the relationship is with Pakistan 
and Afghanistan now, and how--the cross-border traffic, the 
ability to control, you know, the insurgents as they move back 
and forth across the Pakistan border. How is that relationship 
at this point?
    General Dunford. Congressman, clearly the relationship 
between Afghanistan and Pakistan is going to be important for 
us to achieve our ends.
    Over the last year, I have been encouraged by a couple 
things at the political level. Prime Minister Sharif and 
President Karzai have met four times. That is probably 
unprecedented over the last several years in terms of 
engagement at that level.
    We have also had an effective mil-to-mil relationship, 
military-to-military relationship, between the Afghans and the 
Pakistanis that we have tried to facilitate. It has been in 
fits and starts, frankly, in 2013, for a variety of reasons.
    But I met about 6 weeks ago with the new chief of the army 
staff in Pakistan, General Raheel Sharif. He is committed to 
improving the relationship between Afghanistan and Pakistan.
    The one thing I think I am most encouraged with is I 
believe Pakistan recognizes the existential threat that 
extremism presents to Pakistan; so, they believe today that a 
stable, secure Afghanistan is in their best interests.
    And as you addressed, the border area is important in that 
regard. And they no more want the TTP, or the Pakistani 
Taliban, to have safe haven inside of Afghanistan than the 
Afghans want the Afghan Taliban to have safe haven inside of 
Pakistan.
    I am encouraged right now by the conversation that is 
focused on two particular areas. First and foremost, the 
Ministers of Interior have met to discuss the issue of 
extremism and, also, the broader border management issues that 
start with the political issues, the economic issues, and the 
security issues.
    So we have good momentum. I wouldn't tell you that we are 
weeks or months away from a major breakthrough or that we are 
weeks and months away from a true partnership between the two 
countries.
    But I think we have got to the point where they recognize 
that it is in their common interests to deal with the threat of 
extremism and to improve the regime along the border.
    Mr. Smith. Thank you very much, General.
    I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And, General, thank you for being here.
    When he was here last week, General Austin said--I think 
this is pretty close to a direct quote--that, without our 
presence in Afghanistan, the Afghan Army would fracture.
    And I would like to know whether you agree with that. And 
what are the consequences to Afghanistan and to us if we are 
not there and the Afghan Army does indeed fracture?
    General Dunford. Congressman, thank you.
    My assessment is that, if we are not there after 2014, the 
Afghan security forces will immediately begin to deteriorate 
and, largely, that is because of what I mentioned in my opening 
statement, the systems, the processes, these institutions that 
allow them to sustain themselves.
    Things like spare parts, fuel, oversight of contracts, 
ammunition distribution, those are the areas that we are 
focused on working on right now.
    When the Afghan security forces begin to deteriorate over 
time, the Afghan environment as a whole will begin to 
deteriorate.
    And my assessment is that what we will see is, in fact, a 
fracture in the Army over time and, as importantly, 
deteriorating security conditions.
    And I think the only question after 2014 is the pace of 
deterioration of both the Afghan security forces and the 
environment as a whole.
    Mr. Thornberry. Okay. Well, give me the other side.
    If we stay, 8,000 to 12,000, plus counterterrorism, what is 
your prognosis for the Afghan security forces? And how long 
would we need to be there to provide that stability for them?
    General Dunford. Congressman, there is four main areas that 
I would focus on in terms of capability gaps that will exist 
after 2014.
    The intelligence enterprise is one. The aviation enterprise 
is another; we spoke about that a minute ago. Their special 
operations capability, which obviously requires both the 
aviation enterprise and the intelligence enterprise to be 
integrated. And then what I have touched on is what I would 
describe as the capacity of the ministries to actually sustain 
tactical-level forces.
    My assessment is that, with the training mission that is 
envisioned, we can ensure that the connection is made between 
the ministerial level and the tactical level so spare parts 
can, in fact, be acquired and distributed, so fuel can be 
acquired and distributed, so we can have a pay system that is 
in place.
    So my assessment is that we can do that over the course of 
a couple years. And, frankly, our presence will change over 
time. It is largely conditions-based in the sense that there 
are certain things that I believe we can do in 2015. Our forces 
would then adjust in 2016 and continue to adjust over time.
    But I would also say this, that my assessment is that we 
have vital national interests in the region and, although the 
nature of our engagement will change over time and the size of 
our presence will change over time, I don't see a time when we 
will walk away from the region.
    We will be engaged at some level, even if it is a small 
presence inside the embassy with an office of security 
cooperation and perhaps with joint exercises and military 
exchanges and those things that will allow us to continue to 
sustain what we have been doing over the past decade, albeit at 
a much smaller price and a much smaller presence.
    Mr. Thornberry. Okay. Finally, would you briefly comment on 
getting stuff out of there. Obviously, it is an enormous job to 
get equipment and so forth out of Afghanistan. Some things we 
are turning over to them.
    There are reports that we are destroying some things rather 
than turn it over to the Afghans. Can you just briefly comment 
on that effort.
    General Dunford. First, Congressman, I am very confident 
with where we are with the retrograde as a whole.
    And to put that in some perspective, at the height of the 
surge in 2012, we had about 800 pieces of tactical 
infrastructure. Those are bases down to patrol bases. Today we 
have approximately 80. So we have 10 percent of the footprint 
that we had in 2012.
    A little over a year ago we had almost 40,000 vehicles that 
needed to come back to the services to be reset. We have less 
than 10,000 that are in place today.
    And as I mentioned earlier, we have got about 33,000 
forces, American, today, and we had well over a hundred 
thousand at the beginning of the surge.
    So the retrograde and redeployment has gone apace, and I am 
very confident that we will meet our objectives in 2014.
    With regard to equipment that is being destroyed, I can 
assure the committee that today no equipment that is 
serviceable is being destroyed.
    We do have 4,000 pieces of equipment that have been 
identified as excess defense articles. So after we have gone to 
the services and we have said, ``What is it that you need to 
have returned back home to reset the service?''--after they 
have identified those requirements, there is 4,000 vehicles 
left, 1,200 of which are MRAPs [Mine-Resistant, Ambush 
Protected vehicles].
    It costs us a little less than $10,000 to destroy an MRAP. 
It costs us somewhere between $50,000 and $100,000 to actually 
move that MRAP.
    If we wanted to give it to another country, that country 
would have to accept the MRAPs as is, where is. In other words, 
they would have to pay for anything to get that vehicle 
serviceable again and, also, to move that vehicle to their 
country.
    So we are in the process right now, Congressman, of making 
sure, number one, that the services have revalidated their 
requirements and we get everything back to the United States 
that is necessary to reset the force for the next crisis or 
contingency.
    Number two, we are looking at alternatives to provide these 
vehicles to partners, to include Afghanistan, Pakistan, and 
other partners that have participated in operations with us 
right now.
    And if we make a decision to destroy some of those 
vehicles, it will be after carefully thinking through the cost-
benefit of bringing those vehicles back to the United States in 
excess of the original requirement or destroying them in 
Afghanistan, keeping in mind that these vehicles have already 
done the primary thing we wanted them to do, which is keep our 
young men and women alive over the past decade.
    Mr. Thornberry. Thank you.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, General Dunford, for being here and for your 
service, all the hard work in Afghanistan.
    I know my colleagues have already mentioned several areas 
in which we have some question about the ability of the Afghan 
security forces to sustain and to continue to build.
    Certainly the air force is one particular area. Logistics 
is another, where how comfortable are we that they have enough 
in place to be able to move forward with that.
    But I also wanted to ask about the women in the Afghan 
security forces. We have put aside some money to direct that 
effort and to hope that the recruitment and retention of women 
will continue in the Afghan security forces.
    Do you think that, once the U.S. forces are gone, that that 
will also continue?
    General Dunford. Congresswoman, I believe, if we stay and 
we accomplish the mission that is envisioned for train, advise, 
assist, we will continue to see progress in that area.
    And I could point to an example right now. In the Ministry 
of Interior, we have 13,000 women that have been selected to be 
searchers at the polling stations during the elections.
    And I recently met with the Minister of Interior as we 
talked about the challenges that he had in meeting his stated 
goal of 5,000 women in the Ministry of Interior in the next 2 
years and 10,000 by 2017.
    And he very quickly pointed out that what he would do is 
focus on these 13,000 female searchers as a pool from which he 
could draw additional police.
    And I will add that he just recently appointed the first 
female police chief in Afghanistan and there is a second one 
under consideration.
    The progress has been very slow. We identified some years 
ago a goal of 10 percent women in the Afghan National Security 
Forces. We are at less than 1 percent today.
    And so the progress is very slow. There is about 1,800 
women in the Ministry of Interior and about 600 in the Ministry 
of Defense.
    I believe that the Afghan leadership today, in part because 
of the support we provided and the $25 million that you have 
identified, Congresswoman, that is specifically designed to 
assist our recruiting and retention efforts--and both of those 
are equally important.
    Not only do we need to incentivize women--and it is very 
difficult culturally, of course, to incentivize them to join--
but we need to then set the conditions to where they are 
encouraged to stay.
    Mrs. Davis. May I ask, General, do you see institutional 
reforms occurring as well along with that, along with the 
recruitment and the work certainly in terms of some of the 
women, even minor changes like the building and how they 
accommodate women?
    General Dunford. Congresswoman, that is exactly where some 
of the money that the Congress has allocated is going. They 
seem simple, but they are important. Separate changing 
facilities or separate restroom facilities for Afghan women in 
a police station. Very difficult if those things aren't 
available to them.
    And so that is where some of the money will go. And, of 
course, that will make it much more attractive for a woman to 
pursue a career as a policewoman or a soldier if those kind of 
facilities are available. And I do see, again, small, 
incremental, and slow, but change, nonetheless.
    Mrs. Davis. Thank you.
    I wonder if you could clarify just quickly the timeline for 
getting the BSA signed. And I believe you made a statement that 
you are comfortable if that occurs after the election. There is 
also a chance that the results may not be known or a new 
president in place until even September or after that.
    What is our--do we have some not necessarily drop-dead 
dates? But how do you see that? And can we continue with the 
agreement that is in place today?
    General Dunford. Congresswoman, first I would say I want 
the BSA to be signed immediately. And it goes beyond the 
planning for a military retrograde and redeployment.
    First of all, it affects confidence of the Afghan people. 
It affects the confidence of the Afghan National Security 
Forces. I think it affects hedging behavior in the region, as 
they are uncertain as to what Afghanistan will look like in 
2015.
    I am also concerned about holding the coalition together 
over months of uncertainty, and I think that is very, very 
important. I was encouraged by my recent meeting in Brussels in 
that regard, but holding the coalition together.
    The other factor--and these are all interdependent 
variables that reflect the BSA--is the retrograde and 
redeployment.
    I am most comfortable with the delay in signing the BSA in 
our ability to maintain options for the President over the next 
several months, and I feel like we won't approach an area of 
high risk until September. In other words, I can maintain all 
options that the President may want to select from through the 
summer.
    As you get towards September, you enter a period of high 
risk simply because of how much work has to be done to redeploy 
the force and how many days you have left to do it, which is 
why that is a period of high risk.
    But we can sign the BSA with the next president. My 
assumption is that we will sign the BSA with the next 
president, largely because all the primary candidates have said 
they will sign the BSA and because of the overwhelming support 
for the BSA that we see inside of Afghanistan.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, General, thank you for your service, your leadership.
    And I would like to read a statement and then ask you a 
question. This is from an article called ``Money Pit: The 
Monstrous Failure of US Aid to Afghanistan.''
    I realize that is not your area of responsibility; so, I 
want to make that clear to start with.
    The article says: Nonmilitary funds Washington has 
appropriated since 2002 is approximately $100 billion, more 
than the United States ever spent to rebuild a country. That 
estimate came out in July. Since then, Congress has 
appropriated another $16.5 billion for reconstruction. And all 
of that has not bought the United States or Afghans a single 
sustainable institution or program.
    This is an article that came out this week in the ``New 
York Times.'' It says ``Warlords with Dark Pasts Battle in 
Afghan Election.''
    General Dunford, again, you and your staff and your marines 
and soldiers and everyone else in uniform have done a 
magnificent job.
    But as Ms. Davis was talking about the election coming in 
April and then results not known until September, the Afghan 
security forces--I think, in the 12 years we have been there, 
every general that has been here or every admiral has always 
said we are making progress, but it is slow and it is fragile.
    I look at and listened to my chairman recently talking 
about all the cuts that are coming to the Department of 
Defense. I have listened to Secretary Hagel, who I have great 
respect for, as well as the chairman, talking about the cuts 
that are coming. And we know we will be faced with this in the 
April, May, June, July timeframe, I am sure.
    At what point--do you ever have one-on-one conversations 
with the President of the United States about Afghanistan?
    General Dunford. Congressman, I have discussed Afghanistan 
with the President a few times over the past year.
    Mr. Jones. Okay. May I ask just how recent? And I am not 
going to ask any details, but just how recent.
    General Dunford. I was in the Oval Office with the 
President at the beginning of February.
    Mr. Jones. Okay. February.
    Well, if, by chance--and I know you have the knowledge 
because of who you are and intelligence and relationships that 
you have in Afghanistan--if an unfriendly leader is elected, 
more unfriendly than Karzai, who maybe has a similar background 
to Karzai, which is very questionable at best--he has soaked 
the American people for millions and millions of dollars, maybe 
billions by now, and we continue to give them money--would you 
believe that there would come a time that we need to be very 
careful with future commitments if the person elected to lead 
Afghanistan is less trustworthy than Karzai?
    General Dunford. Congressman, I believe our presence after 
2014 is inextricably linked to our ability to have a 
partnership with the new government of Afghanistan, and that 
partnership has to be able to facilitate our counterterrorism 
goals and it also has to be able to support the progress that 
we have made to date with regard to the Afghan security forces.
    And I would just point out that, of the three leading 
candidates, all three have indicated strong support for a 
continued U.S. presence, strong support for continued coalition 
presence, and a recognition that that presence is necessary to 
move Afghanistan forward.
    Mr. Jones. General, I know at one time--and I think we, as 
a government--you had nothing do with it; the military had 
nothing do with it--I think we felt that Karzai was going to be 
our friend, too.
    I don't question your statement at all, sir. I have too 
much respect for you, and you have more knowledge than I do. 
But I think, again, the American people are tired. The 
financial problems facing our country are probably more complex 
and enormous than we have ever had.
    And I hope that the leadership of the Congress, as well as 
the leadership in the military, will be, as you have been, 
sir--be honest and frank with the American people, because they 
are tired of seeing their money and seeing the waste, fraud, 
and abuse in Afghanistan, and, yet, the military has done a 
magnificent job.
    My time is up. Thank you for allowing me to make these 
statements to you, and thank you for your responses.
    I yield back.
    The Chairman. Thank you. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I would like to yield my time to Mr. Veasey of Texas. I 
would like to yield my time to Mr. Veasey.
    The Chairman. To?
    Mr. Larsen. Mr. Veasey.
    The Chairman. Mr. Veasey is recognized for the remainder of 
Mr. Larsen's 5 minutes.
    Mr. Veasey. Thank you, Mr. Chairman.
    General Dunford, I wanted to ask you how long it will take 
to get all the elements of the Afghan National Security Forces 
up to the level where they can conduct their missions 
themselves.
    And let me give you an example of what I am talking about. 
The Afghan Air Force lags well behind the other elements of the 
force. And I wanted to know, for instance, how long will our 
Air Force be required to have assistance in the form of a U.S. 
presence?
    General Dunford. Congressman, thanks.
    Our current plan has the air force--the work that we are 
doing with the Afghan Air Force being complete in 2017. But I 
would quickly point out that today we have 58 Mi-17s that are 
flying in full support of the Afghan forces. We have 20 light--
what are called C-208s, light aircraft that can be used for 
everything from CASEVAC [casualty evacuation] to moving troops. 
We have four attack helicopters. And we have delivered two C-
130s.
    And so, while the air force will be complete in 2017, it is 
very much operational right now. In fact, a special operations 
capability that the Afghan Air Force has today in the form of 
the Special Mission Wing is flying profiles that are as mature 
and as complex as those that I saw as a captain in the 1980s. 
And so, while we will be finished in 2017, the Afghan Air Force 
is very much capable today.
    No decision has been made as to whether or not our aviation 
capability would be available to the Afghans after 2015, which 
is why we are working so hard on making sure that those 
aircraft platforms that we just spoke about are fully 
integrated, and, also, that, from a fire support perspective, 
they have alternatives, to include their artillery, their 
mobile strike vehicles, mortars, and other combined arms 
capability that will allow them to compensate for a lack of 
close air support.
    Mr. Veasey. So it is your opinion that, although we are 
going to be helping them until, what--that 2017 date I think is 
what you stated a second ago--that it is realistic to think 
that they can take over all the required functions by 
themselves by, like--do you think they are ready now?
    General Dunford. Congressman, the biggest--it is not a 
problem delivering an airplane and it is not a problem creating 
a pilot. We are working through those.
    And we--in the United States, we have a ratio of 1.5 pilots 
to aircraft, and we will have that established in Afghanistan 
in 2015.
    The real difficulty is creating the aviation enterprise 
that sustains airplanes. It is the maintainers. It is the 
logistics system and so forth. And so my assessment is that we 
will be working on that for a couple more years.
    Even as the Afghans independently fly missions and support 
the Afghan Army, we will be helping them develop the logistics 
enterprise that will allow them to be self-sustaining in the 
future.
    Mr. Veasey. I also wanted to ask you about the train, 
advise, and assist mission post-2014. And how much risk do you 
see in that particular mission if we have a force of about 
10,000 people?
    General Dunford. I would assess, if we are able to provide 
train, advise, assist at the core level--and that NATO mission 
of 8,000 to 12,000 would allow us to do that--that the risk is 
moderate, and that is moderate risk to both the force and to 
the mission.
    Mr. Veasey. Is there something else that you think that we 
could do to reduce that risk and to move it out of the moderate 
level?
    General Dunford. Congressman, I don't. In Afghanistan in 
2015, just like today, it will be a combat environment. And I 
can't imagine that it would ever get better than moderate risk 
in a combat environment with all of the other interdependent 
variables that are going to affect our progress in Afghanistan.
    Mr. Veasey. Are there any particular areas where you would 
like to see an enhanced effort?
    General Dunford. At this time, Congressman, I am 
comfortable with the range of options that have been provided 
to the President. And we are, of course, waiting for a 
decision.
    Mr. Veasey. Thank you.
    Thank you, Mr. Chairman. Yield back my time.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General, thank you very much for your service. I know 
firsthand the faith that the service members have in your 
service. My youngest son just returned from being an engineer 
serving under your command in Afghanistan last year.
    My wife and I just felt very confident knowing of your 
leadership. And it has turned out to be a very extraordinary 
experience for my son, who has now returned to his civilian 
employment. But thank you very much.
    Also, the people of South Carolina have a bond with the 
people of Afghanistan. We were really grateful that the 218th 
Brigade that I had served in for 25 years--that they served out 
of Camp Phoenix, across the country, working with the security 
forces under the leadership of General Bob Livingston, who is 
now our adjutant general.
    He has identified that, working with the Afghan security 
forces, it was a bonding together with Afghan brothers to 
provide security for the people of Afghanistan.
    I am very appreciative. Chairman McKeon has raised this, 
and that is that the people of Afghanistan are appreciative and 
support the efforts by our forces, NATO forces, and--nearly 70 
percent, as identified by the chairman. Additionally, there was 
the vote by the Loya Jirga indicating a continuation of 
support.
    What is your view of the feelings of the Afghan people 
toward the American and NATO forces?
    General Dunford. Congressman, in addition to what you just 
mentioned--and that is the polling data that is somewhere 
between 65 and 80 percent--and that includes Afghan media 
polling data that support the BSA and support a continued 
presence--what I have seen in my time in Afghanistan is 
overwhelming appreciation and recognition for the contribution 
and the sacrifice of Americans and the coalition as a whole. 
And I think the Loya Jirga speaks to that.
    But I would probably just share with you one anecdote. Two 
weeks ago Monday, I met with nine members of the Afghan 
Parliament, and they were the oversight committees for the 
Afghan security forces. I told them I was coming back to 
testify, and I said, ``What message should I carry back with 
me?''
    And the message they asked me to carry back was to say 
that, first, ``Don't let one man speak for Afghanistan or the 
Afghan people. The Afghan people recognize and appreciate, 
again, the sacrifice that you have made. Please let them know 
that, as much as we appreciate it, we also recognize that that 
commitment needs to continue in the future in order for us to 
realize the objectives that we set out together some years ago, 
and those objectives include both the protection of the United 
States and the advancement of the Afghan people.''
    So I have no doubt that the vast majority of the Afghans, 
you know, upwards of 80 percent, fully support our presence 
right now, and, as importantly, again, recognize what we have 
done over the last few years for them and their people.
    Mr. Wilson. And that is a tribute to our military, their 
service.
    And, also, USAID [U.S. Agency for International 
Development]. I visited there 12 times. It has always been 
impressive to me to see the clasped hands of the U.S. flag and 
Afghan flag. And I noticed that the signs are rusty, which 
means they have been there for a while. If the people didn't 
want it, it would be easy to take it down. I took that as a 
real sign of appreciation.
    Our President has been correct. There is such an 
interconnection of the threat by the Taliban to Afghanistan, 
but, also, to the people and government of Pakistan, and it has 
been ever-changing.
    But what is the latest in regard to Pakistani efforts in 
fighting terrorism and resisting terrorism in their country?
    General Dunford. Congressman, thanks.
    And it is critical that we develop an effective 
relationship between Pakistan and Afghanistan. From a military 
campaign perspective, one of the objectives that we have and 
one of the elements that I describe as what winning looks like 
is to establish a constructive military-to-military 
relationship between Pakistan and Afghanistan so that their 
efforts in dealing with the dynamic of extremism in the region 
are complementary.
    We have made progress over the past year. I am more 
optimistic as I look at the next several months than when I 
look backwards. And part of that is because, again, of the 
commitment that we have from the new chief of the army staff, 
the commitment from the new Prime Minister of Pakistan, his 
efforts to reach out to his counterpart in Afghanistan and to 
the Afghan people and, frankly, some of the initiatives that 
have even taken place over the last few weeks, to include, as I 
might have mentioned a minute ago, the Minister of Interior 
from Afghanistan meeting with his counterpart in Pakistan to 
work on a border management framework that addresses not only 
the security challenges that confront both countries, but, 
also, the political and economic aspects of their shared border 
area.
    Mr. Wilson. Well, it certainly would be to the mutual 
advantage of the people of Pakistan and Afghanistan and, truly, 
the world. Thank you very much.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General Dunford, thank you for your outstanding service to 
our Nation and your steadfast leadership in a dynamic theater 
and for your testimony today.
    I guess my question would be more or less to enhance what 
my colleague from South Carolina, Mr. Wilson, has asked you.
    I am interested in your perspective on what role that Asian 
partners, particularly India, can play over the next 5 and 10 
years in Afghanistan. Would this be helpful or harmful to long-
term U.S. efforts?
    General Dunford. Congresswoman, I think India's role in 
Afghanistan is critical. India is a very close partner to 
Afghanistan and, I think, from an economic perspective and from 
a trade perspective, probably their most important partner in 
the region right now.
    They are not providing lethal aid to Afghanistan as a 
result of dynamics in the region. They certainly--Pakistan 
would certainly be concerned with that. But I think India can 
play a very important role diplomatically and economically in 
particular and, in fact, they are doing that.
    They have a very close relationship with the Afghan people. 
And even with the Afghan security forces, they have assisted in 
the sense of providing some nonlethal support--helicopters and 
parts--and some training that will help our efforts to grow 
Afghan security forces.
    So I think India is a very important partner in that 
regard.
    Ms. Bordallo. So would it be helpful or harmful to our 
long-term U.S. efforts? What would be the answer to that?
    General Dunford. No. Thanks, Congresswoman. It would be 
very helpful.
    Ms. Bordallo. Very good.
    My next question is: From your viewpoint, what still 
remains to be done in terms of reconstruction? What steps could 
we in Congress take to ensure that those dollars are used 
effectively? And are there any partnership programs or tools 
that have been particularly effective that we need to continue 
or enhance?
    General Dunford. Congresswoman, at this point, with regard 
to reconstruction--and I will talk just to the DOD [Department 
of Defense] mission and the Afghan National Security Forces--we 
are very close to completing the program of record, the plan 
that was laid out some years ago for the infrastructure 
necessary to support the Afghan forces.
    We will actually have 32 projects remaining in 2015. Those 
are a combination of Afghan police projects and Afghan Army 
projects. We will be in a position to provide proper oversight 
for the majority of those projects, and we will use the plan 
that we are working with the State Department to use Afghans to 
provide oversight for the balance of those programs.
    So in terms of oversight, I think we are in a position 
where we can share with you the entire program of record. We 
can tell you where we are today. We can tell you where we are 
going to be through 2016. And, again, as I mentioned, it is 
really--as a portion of the program as a whole, a very small 
percentage of the program is remaining to be completed.
    Ms. Bordallo. Thank you.
    And one last question. This has to do with the election 
April 5.
    There has been some talk that the present administration 
may want to continue on. Do you hear that or is that just 
something that is--I am sure he would want to play an important 
role with whoever is being elected. But is there still that 
talk going on, that he may try to seek another term?
    General Dunford. Congresswoman, what President Karzai has 
said publicly is that he believes that political transition is 
an important part of his legacy.
    And all that I have seen over the last few months in terms 
of preparations for elections on the 5th of April, the 
legislation that was passed, the registration process that took 
place, the physical distribution of ballot materials and all 
those kinds of things, indicate to me that we will have 
elections on the 5th of April. And that also includes the 
security planning that is taking place in support of those 
elections.
    So I feel very confident that we will have elections on the 
5th of April, you know, just some few weeks from now.
    Ms. Bordallo. But he does expect to play some kind of a 
role in the coming election?
    General Dunford. Well, I think President Karzai is still a 
relatively young man and an important political figure in 
Afghanistan and would want to maintain influence in Afghanistan 
after his term of office is expired. I think that is probably 
fair.
    And certainly things that we have seen and hear him say 
would indicate that is the case. But I don't see anything that 
would indicate that elections won't be conducted and there 
won't be another president.
    Ms. Bordallo. Thank you very much, General, for your 
answers.
    And I yield back.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General Dunford, every time we have had a hearing on 
Afghanistan I have tried to raise the issue of the narcotics 
trade.
    I think so many times it is pushed aside in importance and 
its effects on Afghanistan both in instability of the country 
and the government, corruption, funding of insurgencies, 
stunting the growth of a real economic base by providing an 
alternative economy, and certainly supporting significant 
criminal activity also within the country itself.
    Now, there has been a long discussion of how we address the 
issue of the drug trade. If you look historically at the 
production of, you know, poppies in Afghanistan, you see that 
the historical level of poppy production was actually doubled 
after we went into the country and then there has been times 
where we have been able to have an impact, have a dip in the 
overall level of production, and times, of course, where it has 
surged.
    Some of the strategies we have used is to go after the 
labs, the fields, the cash, the transportation routes, demands, 
the leaders, and looking for alternative crops. But still we 
struggle with the level of narcotics being at a very high rate.
    Could you give us an update as to where we stand. Do you 
see it remaining as a concern? And then, also, I would like to 
discuss--have you discuss the issue of what happens if the 
United States withdraws. Are the Afghans able to continue the 
efforts that we have? And what do we need to do better?
    Thank you, General.
    General Dunford. Congressman, I think you captured it.
    I mean, it would be hard to look at where we are today with 
the narcotics problem in Afghanistan and say that what we have 
done has worked.
    Our focus, on a military perspective, has been to go after 
where there is a nexus between the insurgency and narcotics. We 
focused on that to try to disrupt insurgent financing.
    But in terms of the broader problem of narcotics, it has 
increased over time. It is larger today than it was a few years 
ago, and I do think that there is a need to address that 
challenge. Otherwise, it will have an adverse impact on the 
future of Afghanistan and the region and those nations that 
suffer from the plight of narcotics being distributed in their 
countries.
    And while, you know, a large part of that makes its way to 
Europe and Russia and lesser it makes its way to the United 
States, I have certainly also taken note from a distance--but I 
have taken note of the increased heroin challenge here in the 
United States.
    So, clearly, the narcotics issue in Afghanistan is one that 
ought to be addressed, but our progress to date has not been 
very good. It has not been, again, a part of the military 
mission except where there is a nexus between the insurgency 
and narcotics.
    Mr. Turner. Well, I am very concerned about that. Perhaps 
you can give us some additional insight as to what you think 
needs to be done, recognizing what you just said is that you 
have not been given the clear assignment.
    You have to, however, you know, be waving the flag of a 
need to address the issue through the, you know, structures 
that you have in front of you with counternarcotics operations. 
You know, you are here to tell us what you need and what needs 
to be done.
    What do you see or what would your recommendation be? What 
don't you have? What needs to happen? You gave a compelling 
statement of this goes right to the heart of, you know, one of 
the issues that you have concerns about. What should we do?
    General Dunford. Congressman, where I have seen progress--
and I didn't mention this--is growing the capacity of the 
Afghan counternarcotics forces. And so we have had some great 
work done by the DEA [Drug Enforcement Administration], which 
we have supported over time.
    The Special Mission Wing has been established, in part, 
with some narcotics funding to go after distribution and so 
forth. And those have all been good, and I think we need to 
continue to do those things.
    I don't personally have an easy solution for dealing with 
the narcotics challenge in Afghanistan. I don't think it is 
just a U.S. problem. I think this has to be certainly maybe 
some U.S. leadership.
    But that is a broader issue that the region needs to grip 
and deal with. And certainly those countries like Russia that 
suffer the most from the narcotics problem also have to be part 
of the solution.
    But I don't see a military solution to the narcotics 
problem in Afghanistan right now, and I don't see a solution 
that the United States can either, in large part or in whole, 
support. I think this has to be something that is done by, 
again, primarily the countries in the region and those that 
suffer the most from narcotics.
    Mr. Turner. General, I would just ask that you move this 
item up the list of problems that are identified that you are 
facing in Afghanistan.
    Even if you don't have the solution, you are shackled with 
the problem, and I think so many times when we receive 
presentations on Afghanistan this is a portion of the problem 
that is not highlighted sufficiently.
    So I would appreciate both your efforts and, you know, 
others to continue to raise this so that we can address it, 
because I don't think you will ever or we will ever or the 
Afghans will ever have success in Afghanistan until this issue 
is addressed.
    Thank you.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you, 
General Dunford, for being here.
    I have been a Member of Congress now for a little over 6 
years, and as a Member, I have made about five trips to 
Afghanistan, like so many on this committee who feel how 
important it is that we do go there. And in our last trip, we 
were so fortunate to meet with you, and I thank you for meeting 
with us.
    It was part of a mothers delegation on behalf of Mother's 
Day. And we go with a dual track, really, of getting an update 
on the situation on the ground, but also, we have a unique 
opportunity and do seek out ways in which we can connect with 
Afghan women to see how their lives have changed as a result of 
our presence there.
    And in every instance, we really meet remarkable women. We 
have met cadets at the country's military academy, we have met 
staff members at the U.S. embassy in Kabul, we have met 
university students, we have met government officials, we have 
met community leaders. So it is clear that as a result of all 
of our presence there, we have created a more open society and 
that women are more fully participating in many meaningful ways 
in their country's life.
    And I think I always come away thinking how important it 
is. We take pride in these gains. I think we should rightfully 
take pride in these gains, but we all know how fragile they 
are, like so many other things in their country. And I hear 
always a really deep concern from the women we meet with as to 
what will happen as our presence, as we draw down. They are so 
grateful for their ability to contribute to their country's 
life, but deeply concerned.
    And I think the upcoming elections are critically important 
to the future of women's participation in their country's 
lives. And I think that it is so important that women, Afghan 
women are fully able to vote and participate in a choice about 
the future of their country without fearing for their own 
security.
    So I was pleased to read in your written testimony about 
your confidence in the Afghan National Security Force's ability 
to support a secure election. And the biannual 1230 report 
mentions that there are approximately 22,000 polling centers 
and stations in Afghanistan for use during the April election, 
but that in November, the ANSF had only 2,000 women members, 
which you referenced, to assist with security operation during 
the elections.
    So can you outline--and you also mentioned an additional 
13,000 people that have been recruited. So can you talk about 
what we are doing to make sure that all these polling stations 
and centers are places in which women can go to vote.
    The report also said, you know, what is at stake here. 
Quote, ``failure to recruit more women could deter female voter 
turnout, harming the legitimacy of those elected to office in 
2014.'' So it is about a number of things, but in particular, 
the legitimacy of the government going forward, and if women 
are not able to participate in a meaningful way, that will 
really be drawn into question.
    General Dunford. Thank you, Congresswoman. And we consider 
successful elections, the words we use are ``inclusive,'' 
``transparent,'' and ``credible,'' and the inclusive part is 
the one you are obviously addressing, the one that we mostly 
focus on from security perspective.
    You mentioned the 20,000 polling centers; about 40 percent 
of those will be women only. So that is one way that we will be 
able to see an opportunity for women to vote. Those 13,000 
female searchers will allow women to vote at the polling 
stations and the polling centers. There's 6,775 polling centers 
across the country; there will be access women at those 
centers. But what you really talked about are the stations. 
Those are the places in some of the smaller areas and so forth, 
and, again, 40 percent of those will have access as a result of 
these 13,000 women that have been trained now to be female 
searchers and really be there to make sure that the polling 
centers are accessible to women.
    Ms. Tsongas. Do you feel you have the support of the Karzai 
government in this? Is this something we are having to take on? 
What is your sense of that?
    General Dunford. Congresswoman, you will be glad to know 
that we did not have anything to do with the 13,000 female 
searchers. This was a program that we certainly supported and 
our Congress supported, but the Minister of Interior is the one 
that has responsibility for the elections. He is the individual 
that set up the program to train the female searchers and to 
make sure they were properly distributed, and he worked with 
the Independent Elections Commission to make sure that the 
polling centers were available to women in that 40 percent, I 
mentioned to you that were women only would be there for 
inclusive election.
    So I very much see this as an Afghan-owned election. We 
have certainly provided some logistic support, but in terms of 
accessibility to women, I think that has very much been an 
initiative by the governor of Afghanistan, and I think there is 
a recognition by the governor of Afghanistan that to look back 
on these elections and say they were successful will in part be 
determined by the inclusivity to include women's participation.
    Ms. Tsongas. Thank you, General. My time is up.
    Mr. Thornberry [presiding]. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Dunford, thank you so much for joining us today. 
Thank you for your service to our Nation. How would you 
characterize the ANSF's ability to maintain infrastructure and 
equipment currently, and what their capacity may be in the 
future? We all know that there is some question about their 
mentality in maintaining what we have given them and how they 
would use it in the future.
    Obviously, as far as sustainability for the operations, we 
would like to see them pursue to maintain security in the 
nation. How do you see that now? What do you think might need 
to be improved with that?
    General Dunford. Congressman, thank you for that question. 
You know, I think it is fair to say that over the last couple 
years we really focused on the quantity of the Afghan forces. 
We doubled the size of the Afghan forces just since 2009 alone. 
And along the way, there was some challenges with the quality 
of the force, one of which is the one you are talking about.
    But you mentioned the mentality, that has not been a part 
of the logistics challenges from my perspective of the Afghan 
forces. In fact, when you come over in the next couple of 
weeks, you know, you will have an opportunity perhaps to see 
some young Afghans. And given the parts and the opportunity, 
they can fix anything. And so I am very impressed with what 
goes on at the lower tactical level in terms of their desire to 
fix their equipment and their ability to fix their equipment.
    What we really have a shortfall on is the planning, the 
programming, the budgeting, the acquisition of materials that 
eventually allow a part to be delivered down into a motor pool 
where a young mechanic can actually hang that part and get the 
vehicle back in a high state of readiness.
    And so the piece that we need to really fix is, we need to 
train the mechanics, and I think we have made great progress in 
that regard over the last couple years and we will continue to 
focus on that. But most importantly, we need to make sure that 
the systems and the processes are in place to actually deliver 
those parts to that young mechanic in a timely manner. And that 
is really what I think needs to be addressed in the coming 
months and that is actually our focus.
    I mean, it is important to point out, we have shifted from 
providing combat advising, which we were doing through last 
year, to do what we call security force assistance based on the 
functions that need to be addressed for the Afghans to be 
sustainable.
    So our orientation today, our advisors, when they go to 
work every day, are focused on the things that you are talking 
about, Congressman, helping fix the logistics system, helping 
fix the pay system, helping make sure that the parts are 
actually delivered to those motor pools.
    And we have some work to do, but we also have the buy-in of 
Afghan leadership. They actually own the problem now. They 
recognize if they don't fix this problem, they won't be able to 
make progress. And so we are increasingly in a support role and 
they are very much leading and fixing this problem.
    Mr. Wittman. In the context of U.S. presence there, let's 
look at the scenario if the President decides there will not be 
a post-2014 presence in Afghanistan. Will we be able to get out 
our equipment by December 31, 2014, and what kind of lead time 
would we need in order to accomplish that to make sure that we 
are getting our equipment out and making sure, too, that we are 
wrapping up our mission there and especially how we interrelate 
there with NATO?
    General Dunford. Thanks, Congressman. If today, I knew that 
we were going to draw down the force and withdraw all the 
people and equipment by next December, I wouldn't do much 
different between now and July. We are stabilizing the force to 
make sure the Afghans are set up for success in securing the 
elections and for the summer of 2014.
    In July, in August, we will be able to maintain both 
options: the full regional approach that I spoke about earlier, 
the NATO train, advise, assist mission, or to withdraw all of 
our equipment and people by the end of 31 December.
    As we get into September, we enter a period of high risk in 
our ability to actually withdraw all of our people and 
equipment in an orderly manner by the end of December. And the 
reason simply is, Congressman, there is about 102 days worth of 
work to do based on the force size in September of 2014.
    So I call it the ``physics plus friction equation.'' The 
physics of withdrawal will be about 102 days. You obviously 
want to buffer for bad weather, aircraft maintenance issues, 
enemy gets a vote. And so as you start getting to less than 120 
days, you start entering a period where your risk of an orderly 
withdrawal starts to increase. And that is the 1st of 
September.
    Mr. Wittman. Let me ask in another scenario. If we are able 
to achieve a post-2014 residual presence, looking at that 
retrograde mission, does that retrograde mission personnel 
number count against the boots on the ground [BOG] cap?
    General Dunford. In 2014, Congressman, we have a number of 
individuals called the CENTCOM [Central Command] Material 
Reduction Element that support us in our retrograde 
redeployment efforts, and those numbers don't count. So when I 
talk about the 30,000 Americans in Afghanistan, those numbers 
don't count. Those people come back and forth. And they do a 
lot of great work for us, but they are not part of the train, 
advise, assist mission that we have.
    My assumption is that all of the forces that are there in 
2015 will be accountable, will be part of BOG accountable is, I 
think, the term that you are looking for.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. Yield back.
    Mr. Thornberry. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    General Dunford, your appearance and presentation today 
represent the best of our military, and you exemplify the 
professionalism that, you know, is just tremendous. I thank you 
for your appearance today, and I thank you for your knowledge, 
your comprehensive knowledge of the affairs of your command.
    And I wanted to ask you, a recent worldwide threat 
assessment by the Director of National Intelligence asserts 
that an Al Qaeda core probably hopes for a resurgence following 
the drawdown of U.S. troops in Afghanistan. How are you 
measuring the strength of the insurgency; and in particular, 
what can we conclude from considering the current number of 
insurgent attacks, the sophistication and scale of the attacks, 
or the kinds of targets the insurgency is choosing?
    General Dunford. Thanks, Congressman. First, with regard to 
Al Qaeda today, I believe Al Qaeda today is focused on survival 
in Afghanistan, and that has been as a result of the constant 
pressure on the terrorist networks that we have had over the 
last several years, in particular with our special operations 
capability.
    The second part of your question gets after the insurgency 
and what kind of targets they are focused on right now. There 
is no doubt in my mind, and we know this both for our 
intelligence and from open source, that the insurgency is 
focused on disrupting the elections in 2014 and focused on 
crushing the spirit and the will of the Afghan forces in 2014.
    Because they believe that we are leaving at the end of 
2014, they look at this as a very critical year. And so what we 
expect to see are high-profile attacks to create the perception 
of insecurity. What we have seen and expect to continue to see 
are assassinations against government officials and political 
leaders and campaign workers and candidates during the 
election, and then what we expect to see through the summer 
similarly are high-profile attacks, again, to garner media 
attention and create that perception of insecurity.
    My assessment is that the physical ability of the Afghan 
security forces is sufficient to secure the country against the 
insurgency. I don't believe the insurgency is capable of 
seizing ground, seizing terrain. What they are capable of doing 
is these, again, high-profile attacks, assassinations, and 
those kinds of things to create a perception of insecurity.
    Mr. Johnson. Does the ANSF have the support of the majority 
of the Afghan people?
    General Dunford. Congressman, thank you for asking that 
question, because that is a really important point. Since I 
have been in Afghanistan, of all the changes that have taken 
place in a little over a year, the most profound changes have 
been in two areas: One is the sense of accountability and 
responsibility of Afghan leadership and I have talked about 
that a little bit; but the second is, the ownership that the 
Afghan people have for their Afghan security forces.
    And I will just give you one example because it is a recent 
example within the last week. We had an unfortunate incident 
where 21 young soldiers were killed out in the Kunar province 
in the northeast part of the country. In the wake of that 
event, there was an outpouring of support for the Afghan army.
    Those soldiers were given a memorial service in Kabul. 
Thousands of people participated in that. We saw on the Web, on 
Twitter accounts and so forth, young Afghans voicing support 
for the Afghan army. And in the polling that has been done, to 
include the polling done again by Afghan media outlets, about 
80 percent of the Afghan people have a positive assessment of 
their army and their police force.
    And so I think of all the developments that we have seen 
recently, the question you ask really highlights one of the 
more important developments, again, that sense of ownership 
that Afghans have, the sense of pride that Afghans have for 
their security forces, and we are very encouraged by that.
    Mr. Johnson. Now, that is good to hear. Does that hold true 
in all regions of Afghanistan or just in the area surrounding 
the capital or what?
    General Dunford. Congressman, thanks. It is in all areas of 
Afghanistan, but there are about somewhere between 11 and 15 
percent of the people that still support the Taliban. I would 
say it a different way, 85 percent of the people don't support 
the Taliban, but clearly there are some people who don't 
support the Afghan army and it is a very small percentage of 
the population. They are largely in the south and east. But the 
dynamic that I described earlier in terms of the sense of 
ownership and a sense of pride in the army is certainly 
something that cuts across all of the regions.
    Mr. Johnson. Thank you, sir. And I yield back.
    Mr. Thornberry. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    General, two questions kind of rolled up into one here. 
One, you talked about successes. Can you talk about significant 
successes, recent significant successes? And two, talk about 
NATO for a minute, if you would, and just kind of how the NATO 
coalition, what they are doing and what they are bringing to 
the table still and kind of how you view them?
    General Dunford. Thanks, Congressman. With regard to 
successes, particularly with the Afghan forces, I probably 
pointed to, the first was Loya Jirga that took place in 
November--3,000 participants. The city was completely secured, 
locked down physically by the Afghan security forces. There 
were probably 8 or 10 very high-profile threat or streams that 
we were tracking every day that the Afghans were able to 
disrupt.
    In the weeks leading up to the Loya Jirga, they were able 
to make sure that the enemy's efforts, and they were very 
concerted efforts, to disrupt the Loya Jirga were unsuccessful. 
And that event was conducted without a single security 
incident. Very encouraging. And what is most encouraging is 
that effort was led by Afghans, the integration of Afghan 
security forces was done by Afghans and we had very minimal 
support.
    Just 2 weeks ago there was an Islamic festival in Ghazni. 
Once again, a lot of intelligence and a lot of chatter, a lot 
of threats against that event. Expected 6,000 people to come to 
that event, many from throughout the region, international 
leaders from throughout the region. Once again, the Afghan 
forces developed a plan, implemented that plan, and that event 
was conducted without a security incident.
    And I would also point to the registration process as a 
prelude to the elections that took place during the summer and 
during the fall, which was successful and puts us in a position 
of being able to be successful on the 5th of April during the 
actual conducting the elections themselves.
    Just over the last couple months, I guess the last one I 
would mention, if you just look in the southern part of the 
country, the 205th Corps is down there in the south, in 
Kandahar, one of the more difficult areas, of course. And they 
have conducted a series of operations into the enemy support 
area to completely disrupt and dislocate the enemy over the 
last couple of weeks.
    And during the winter months historically, the Afghan 
security forces have conducted about 10 operations a month. 
Over the last 2 months, their average is about 20 to 25 
operations per month. Again, integrated combined arms 
operations planned and led by the Afghan security forces with a 
minimal amount of support from the coalition, that is all 
something that even a year ago I couldn't have imagined any of 
those examples taking place without a much greater role by 
coalition forces.
    With regard to NATO itself, in the fall, Congressman, when 
we were looking towards a defense ministerial that just took 
force in February, we were all concerned that if we didn't have 
a decision in February, the coalition might begin to unravel. I 
did attend, with Secretary Hagel, a defense ministerial in a 
smaller session of just the 28 primary members of NATO. 
Secretary Hagel shared the conversation that took place between 
President Karzai and President Obama and talked about the need 
to plan for alternatives at this point.
    And I would tell you that all 28 ministers that sat around 
that table said we recognize the need to plan for other 
eventualities, but we want you to know we are committed to a 
post-2014 mission; we plan to stay the course; we recognize how 
important it is. And so from a coalition-cohesion perspective, 
I was very encouraged.
    Italy, Germany, and Turkey, in particular, are framework 
nations. Our mission in 2015 is envisioned as the Italians 
taking responsibility for the west, the Germans in the north, 
the Turks in the center, and then the United States would be in 
the east and the south. And those three countries, in 
particular, have stayed strong and indicated a strong interest 
in participating in a post-2014 mission and worked very hard to 
make sure they had the political will in their respective 
capitals to be able to do that.
    Mr. Hunter. Thank you. One last question. I talked to 
Secretary Hagel about 2 weeks ago about Bowe Bergdahl, because 
the State Department had their lines; a lot of different 
agencies were doing different things; DOD had their take on how 
to get him back; and it sounded like it was all kind of 
disorganized.
    I know now that Mike Lumpkin, ASD SO/LIC [Assistant 
Secretary of Defense, Special Operations/Low-Intensity 
Conflict] is the point man for DOD. So my question is, you 
don't have total control over that but you have somewhere in 
your command structure, you have a part of it. What is your 
part? What is your take on it? How are you tied into it? And 
who do you see as the lead now on getting Bowe back?
    General Dunford. Congressman, first of all, the force is 
very aware of Bowe Bergdahl and committed to making sure he is 
going to come home, and we are going to continue to do 
everything we can until he absolutely comes home. We have some 
special operations capability in Afghanistan. Depending on 
where Bowe Bergdahl may be, what intelligence we get, we would 
certainly be prepared to conduct operations as directed, if we 
were to get actionable intelligence.
    Mr. Lumpkin, as you mentioned, is the OSD [Office of the 
Secretary of Defense] coordinator. If anything has to happen in 
Afghanistan, that would certainly fall within U.S. Forces-
Afghanistan and the special operations capability that we have 
there. And we are certainly prepared to do that.
    We have a detailed plan. I wouldn't want to talk about it 
here, but we have a detailed plan that addresses everything 
from Bowe Bergdahl's recovery to the medical support he may 
need and the onward movement back to the United States in the 
event that we are able to get Bowe Bergdahl back. And so we are 
prepared and wouldn't waste a nanosecond were we to get an 
opportunity to return him to his parents.
    Mr. Hunter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Thornberry. I might just mention that Mr. Lumpkin will 
be with us in the IETC [Intelligence, Emerging Threats and 
Capabilities] Subcommittee in open and closed session this 
afternoon, so we may pursue this further.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And General, thank you for your leadership and service over 
a long time to our country. And I want to also, through you, 
convey my appreciation and the whole committee for the men and 
women who serve under you, the incredible job they are doing in 
Afghanistan.
    We have a large number of men and women in uniform from my 
district who are serving under you in Afghanistan right now. 
They are members of the Army from Fort Huachuca and members of 
the Air Force from Davis-Monthan Air Force Base, and some of 
those service men and women are from the 355th Fighter Wing at 
Davis-Monthan in Tucson.
    As you know, General, these are very skilled pilots. They 
have provided close air support, forward control, and combat 
search and rescue for our troops on the ground, and have been 
very successful in fighting the enemy at close range. And as 
you also know, I am sure, General, this platform is able to 
land in austere airfields including dirt runways without harm 
to the engines, and other platforms with engines that close to 
the ground cannot do this. They just suck up dirt like vacuums.
    And as you know, General, President Obama's budget proposal 
would divest the A-10 fleet to reduce costs at DOD. And I am 
wondering, General, if you could comment in your experience on 
the role that the A-10 and their pilots have played in 
supporting our ground troops in Afghanistan against the Taliban 
compared to other close air support platforms.
    General Dunford. Thanks, Congressman. And I don't think 
there is any question, and I know you have had a number of 
witnesses that have been here and said the same thing. In the 
current environment, you know, there has not been a substitute 
for the A-10, it has been an extraordinary platform. It has 
supported our men and women on the ground to a great degree, 
and I also had experience with it in Iraq as well, so I am a 
big fan of the A-10.
    More importantly, I am a big fan of the capability that the 
A-10 represents, and so I know there is a discussion about 
divestiture. I certainly am not part of that. My job is to 
identify the requirements and the capabilities that are needed 
to support the force and then the chief of staff of the Air 
Force provides those capabilities, and I know that they are 
working through those issues right now.
    Mr. Barber. Well, let me just follow up on that, because 
earlier, Ranking Member Smith raised a question, I think it is 
a very valid question that you answered, I think, very frankly, 
and that has to do with the residual force, if we have one, 
which we hope we do. Because I agree with you, General, that if 
we don't keep up force in Afghanistan we are going to lose so 
much of what we have invested in human casualties, lives lost, 
and treasure.
    I would like to come back to that question of a post-BSA. I 
hope we have one. If we finalize the BSA, and hopefully we do 
it soon, would you be recommending to the President that we 
maintain the capability to provide close air support to the 
remaining forces, the Afghan forces and our residual force?
    General Dunford. Congressman, first, we will absolutely 
have close air support in support of our force. And at this 
point, you know, again, we provided the President with a range 
of options about 2014. And until he makes a decision, I would 
prefer to keep my recommendations private as best military 
advice to the President. But I will tell you absolutely that 
with regard to close air support, we will not have a post-2014 
presence without being fully supported and that will include 
aviation capability.
    Mr. Barber. And could you say that that would be best 
delivered by A-10s as it has been up to now?
    General Dunford. Congressman, you know, I will identify the 
capability and, again, I will look to the Air Force to meet 
that capability.
    Mr. Barber. Very good. Well, we all know the Warthog works. 
And when I speak to our Army men and women who come back to 
Fort Huachuca, they tell the stories about their deployment, of 
course, but they say that the best day that they have is when 
the Warthog is overhead and they know they are going to be safe 
and then search and rescue, of course, is well supported.
    Again, General, I really thank you for what you have done 
in Afghanistan. I do hope that we can get this BSA signed soon. 
What we put into Afghanistan cannot be squandered by not having 
a continued presence at whatever level is appropriate and that 
you recommend to the President. Thank you, again, for coming 
today.
    General Dunford. Thanks, Congressman.
    Mr. Thornberry. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. Before I start, I just 
want to make a comment in reference to our friends in the 
Senate as relates to Ukraine, and actually diverting funds that 
are destined to our military to help the Ukrainians out. I 
think it is just a dumb idea that we would cut any additional 
money from our services, particularly when we are still at war, 
and the challenges that we face.
    But General, I truly do appreciate, you lead the men and 
women who are the tip of the spear, those that are engaged in 
combat today. I have had sons that have served in both Iraq and 
Afghanistan, and so I certainly do appreciate your leadership. 
But I have to tell you this, that I am concerned, you know, 
obviously the American people are concerned about continued 
engagement in Afghanistan.
    You know, I will be honest with you; I fluctuate back and 
forth about whether we should stay there and risk, it's not 
just dollars but risk, you know, the blood and lives of 
American citizens in support of the Afghanis. It reminds me 
back when I was at a movie with my wife and we watched 
``Charlie Wilson's War.''
    And the amazing thing is, our older son was in combat in 
Afghanistan for 15 months when we were watching that screening. 
And we said, geez, if we had only done something different back 
then, maybe our son wouldn't be in Afghanistan today fighting a 
fight across the shores.
    So, you know, that is why I am somewhat conflicted, because 
people back home say, you know, we just need to get away, just 
get out of Afghanistan and not risk any more of our service 
members' lives.
    I hear your testimony and I have been to Afghanistan and 
you see some of the progress, but I am concerned about whether 
it is sustainable and how much money we have to put in play. 
But secondly, I was in Iraq and I had two sons in Iraq at the 
time during the drawdown. And one of the nights that we were in 
Iraq, there was an IRAM [Improvised Rocket-Assisted Munition] 
attack against U.S. forces and a number of our soldiers from 
the 1st Infantry Division were killed.
    I also know that troops identified where the bad guys were 
putting their heads at night and they were not allowed to go 
and either capture or kill those that were responsible because 
of the relationship that we had with the Iraqis; they blocked 
us from going to protect our own.
    Do you see any parallels that we could see that again in 
Afghanistan, or are we going to ensure that our troopers and 
marines that are there continue to have the ability to protect 
themselves and go out and find and destroy, not just dependent 
upon Afghanis to do that, but do we have the ability or will we 
have the ability?
    General Dunford. Congressman, thanks for that question. 
Along with Ambassador Cunningham, the ambassador to Kabul, I 
sat through 12 weeks of the BSA negotiations, and my primary 
focus was, of course, to ensure that the bilateral security 
agreement had the authorities inherent in that agreement to 
allow us to properly protect the force which includes both 
force protection measures of the kind you describe as well as 
the inherent right of self-defense.
    And I am confident that that bilateral security agreement 
has the authorities in it to provide proper protection. I would 
never, ever make a recommendation for us to deploy young men 
and women in harm's way without their ability to protect 
themselves, again, not only the inherent right of self-defense 
but also to take force protection measures that are appropriate 
in a combat environment.
    My assessment is that 2015 in Afghanistan will be a combat 
environment, and my strongest recommendation is that we will 
have the authorities necessary to properly protect the force. 
And, again, my role as one of the negotiators with the BSA was 
to ensure that those authorities were, in fact, in place. So I 
can give you confidence in that regard, Congressman.
    Mr. Nugent. And General, that to me, as a Blue Star parent, 
I still have sons that are serving, that means a lot to us. For 
me, to support us, you know, continuing on in Afghanistan, I 
want to make sure, you know, not just the immediate self-
defense, we all understand that, but the ability to go out, 
like you say, to project force if we know where the bad guys 
are that are actually attacking our troops. I want to make sure 
that for me to support that I would need to have the assurances 
that we have the ability or not only the ability but the 
willingness to do that. And I appreciate your comments. I 
really do.
    So with that, Mr. Chairman, I yield back.
    Thank you, General.
    Mr. Thornberry. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Good morning, General Dunford. I was very happy to read in 
your prepared remarks that you devoted a section to stewardship 
of resources. It is always important to address the importance 
of being good keepers of taxpayer dollars, but it is ever more 
important in these times of constrained resources.
    You also acknowledge instances of inefficiencies and waste 
in Afghanistan, which is a huge concern for me going forward as 
our withdrawal intensifies. In your prepared statement, you 
mentioned developing a five-step process to increase the checks 
and balances to improve planning, execution, and oversight of 
resources.
    I admire the work of the Special Inspector General for 
Afghanistan Reconstruction [SIGAR], and while they are 
independent, I would like to hear more about your involvement 
in coordination with their efforts, and a little bit more about 
your five-step process and what it entails.
    General Dunford. Thanks, Congresswoman. And first, with 
regard to the special investigator as well as all the other 
audit agencies, we have 15 people in U.S. Forces-Afghanistan 
that their specific role is to facilitate the audits and the 
investigations that take place. And I think we had some 100 of 
them last year. And I think the prolific nature of the SIGAR 
reports is probably the best indicator of the support they have 
received, because all of the information and all the access 
they have is reliant on our cooperation at U.S. Forces-
Afghanistan.
    And I am certainly most interested with audits and 
investigations and what they can tell me that will allow me to 
avoid making mistakes in the future. And while I think it is 
important to gather lessons learned, what I am mostly concerned 
about today as a commander is what am I doing today and what am 
I going to be doing tomorrow that might not be the best use of 
our resources, and so how do we do it?
    With regard to the processes that we put in place, maybe I 
will just give you one example that will bring a process, you 
know, probably to life. We, a couple years ago, built a program 
of record for Afghan security forces, and at the time there 
were certain assumptions made about the infrastructure that 
would be required to support the coalition forces at the time.
    And assumptions were made about the size of the force. For 
example, you would be surprised to hear that one of the 
assumptions is that there might still be 100,000 Americans in 
Afghanistan in 2015. And so some of the infrastructure that was 
not made available to the Afghans was later not going to be 
necessary for the force.
    We went back through this year, starting in May, and we 
reviewed the entire Afghan program of record through this 
process that I just described. And in the course of that, we 
found a number of projects adding up to $800 million just since 
May, $800 million of projects that we could cancel or descope 
because there was other infrastructure available, you know, 
that the coalition was not going to be using in 2015.
    And while that sounds like a fairly simple thing to do, 
those are the kind of activities, especially now at the end of 
the campaign, those are the kind of activities we are doing 
every day where every single project goes through, you know, a 
very comprehensive process to make sure that, one, we have 
proper oversight; two, it is absolutely needed; and three, it 
is within our means in terms of the projected resources that we 
will have available; those being the three most important 
criteria that we look at as we go through this process.
    So, Congresswoman, I am actually pretty proud of the team 
of folks that I have over there that are working through this. 
They have come up with a lot of creative ways to make sure that 
we are good stewards. We realize that we are in the 21st 
century and the power of the narrative is all-important, and we 
also know that the narrative of us being good stewards is 
important to the mission, it is important to the Congress, it 
is important to the American people.
    And we have worked very hard over the past year to make 
sure that we had a powerful narrative of good stewardship. And 
again, I think although sometimes investigators and those being 
investigated, there is often inherent friction in that 
relationship that you understand, at the end of the day, you 
can't argue with the results in terms of the numbers of 
investigations that have taken place in the areas that we have 
identified where we can be more efficient in the expenditure of 
our resources.
    Ms. Duckworth. Well, one of the things that the special 
inspector general had said and was very complimentary to the 
military effort is looking at contractor fraud or contractors 
who need to be disenfranchised from the process, and that 
information is shared between the different military activities 
that are going on. But there were real concerns with as the 
military drawdown occurs, if that information will be passed on 
to other U.S. agencies, such as State Department, USAID, who 
they found were actually still contracting with folks who has 
been disenfranchised under the military procurement system.
    What work are you doing there to sort of transfer that 
information over to our sister agencies?
    General Dunford. Congresswoman, we meet with the U.S. 
Embassy and USAID on a biweekly basis, so our folks are 
completely integrated. All the information and intelligence 
that we have concerning contractors is passed to the embassy in 
real-time, and that will continue in the future. I have a 
liaison still at the embassy. I actually have a brigadier 
general in the embassy with a staff of about eleven. And their 
job is to make sure that we have absolute transparency between 
the U.S. mission, military mission as well as our U.S. Embassy.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    And General, thank you for your patience in sitting here 
today. We appreciate your service. I have been in Congress 
about 3 months now. I have got to tell you, before I came here, 
I was one of those people that said it is just time to get out. 
I was on the campaign trail. I heard that from a lot of my 
constituents.
    But since I have been here and served on this committee, I 
have been persuaded that I was wrong about that and that the 
sort of proposal that you have made about our ability to stay 
on the limited basis that you have proposed, if we can get the 
BSA, is a better way to go.
    Nonetheless, I still talk to people from my district who 
are serving, or have served over there, your boots on the 
ground. And when I talk to them, they think we should get out; 
that they are pessimistic about what our future can be there. 
And they base that on a couple things: One is, they don't think 
we are wanted there, and they don't see progress from their 
service.
    Now, they don't get to see everything you see. So I was 
hoping you could help me out and tell me what you would say to 
them so that I know what to say to them as I take the position 
that I am taking on their behalf.
    General Dunford. Congressman, thanks. And I will try to 
very quickly tell you what I say to the troops as I am talking 
to them. First of all, in 2002, we established the very first 
battalion, or kandak, of the Afghan army, 600 soldiers. So the 
first 600 soldiers were in 2002. We had less than half the 
number of Afghan security forces that we have today as recently 
as 2009.
    The first time I made a visit to Afghanistan was at the 
Helmand Province in 2008. At the time, the ratio of coalition 
forces to Afghan security forces was 10-1. Today the ratio is 
10-1, Afghans to members of the coalition. You know, we have 
got about 45,000 in the coalition and 370,000, so it is closer 
to 10-1 than certainly the 1-10 that we had.
    More importantly, even over the last several months, the 
Afghan forces have assumed responsibility for security. So we 
are no longer conducting operations. It is the Afghans that are 
conducting security for the Afghan people on a day-to-day 
basis, and increasingly, they are able to do things without our 
support.
    So if you go for--and I do have concerns about this. If you 
go for a 7-month deployment or a 12-month deployment, sometimes 
the change is imperceptible. But if you had the opportunity 
like I had to visit Afghanistan over the years and see us go 
from a ratio of 10 members in the coalition to 1 Afghan soldier 
to the exact opposite ratio and increasingly decreasing the 
coalition, and by the way, the security environment, as I 
mentioned in my opening remarks, hasn't changed since 2012 
until today, and in that time we have gone from over 100,000 
forces, members of the coalition to about 33,000 Americans and 
45,000 members of the coalition.
    The other thing that may be harder for our folks to measure 
is what I talked about earlier, and that is the human factors. 
And, you know, when I first saw the Afghan security forces, I 
remember seeing a young lieutenant who was pleading and 
cajoling with his Afghan counterpart to go out on patrol 
without much success.
    Today what we see is a sense of pride, a sense of 
aggression, and frankly most of the time the Afghans are 
telling us, look, if they don't need our support, they are 
telling us to back off, they have got it. And we see that more 
than not in terms of where the Afghans are.
    So the greatest thing I have seen today is that the Afghan 
security forces really feel the ownership for security in the 
country, Afghan leaders are the ones that when there is a 
problem, identify it with logistics; when there is a problem, 
identify it with leadership; when troops aren't getting paid, 
Congressman, it is not my problem anymore. It is the Afghan 
leadership's problem.
    Now, they may come to me to help with the solution, but 
they own the problem. And I wish that the young men and women 
that have deployed over the years actually had the opportunity 
to see our progress over time as opposed to, you know, the 
limited period of time that they serve in Afghanistan where it 
may be very difficult to see.
    And with regard to the Afghans wanting us to leave, that is 
not a bad thing. We want to leave; they want us to leave. It is 
not a natural thing for us to be there in the numbers that we 
are in right now. But as much as they want us to leave, because 
they want to assume responsibility fully on their own, they 
also recognize that there is a few capability gaps that have to 
be addressed before we go.
    So I think there is a recognition right now, a professional 
recognition that what we are doing is necessary, and frankly, I 
don't think it is a bad thing to consider our presence in 
Afghanistan at the size we have today to be a necessary evil to 
meet both our interests and Afghans' interests knowing that 
that presence will be reduced over time.
    Mr. Byrne. Thank you, General.
    I yield back.
    Mr. Thornberry. Mr. Gallego.
    Mr. Gallego. The last one. Thank you, General. I also want 
to thank you for your service, but also for taking the time to 
teach so many of us the intricacies of Afghanistan, especially 
on our visits over there, that is very meaningful to so many of 
us.
    I represent 136th of the population of Texas, but nearly a 
quarter of it by land. And if you are looking at that map from 
San Antonio to El Paso, a lot of, I am going to call them kids, 
who either serve now or have served in uniform and have served 
in Afghanistan, and I meet with veterans; the one thing that 
ties us all together, big or small town, is the large community 
of veterans.
    And recently, in meeting with some veterans, there is, and 
I will be diplomatic in the term that I use, I will say there 
is some disappointment with the U.S. and the exit from Iraq, 
because there are a lot of those veterans who feel like they 
sacrificed so much and saw their colleagues and comrades in 
arms sacrifice so much. And at the end of the day there was not 
much left to show for it.
    Your testimony here has been fairly optimistic, so what 
would you say to those veterans about why Afghanistan is 
different, and why it is that we should be optimistic about the 
idea that we will draw down and draw out completely?
    General Dunford. Congressman, thanks. As I said to the 
force several times, one of the most important responsibilities 
I feel and all of us that are serving in Afghanistan feel right 
now, at the end of this mission, at the end of 2014, we need to 
look at the families that have fallen and we need to look at 
our counterparts that returned home much different than when 
they deployed and tell them that what they did was worthwhile. 
That is very important to us.
    And so I have described what we are doing today as, what 
does winning look like at the end of 2014? And what I would say 
to your constituents is, particularly those that played a role 
in Afghanistan, what winning looks like is effecting security 
transition and letting the Afghan forces stand on their own so 
that they can provide security in Afghanistan and, by the way, 
be effective partners in the war against terrorism that has 
threatened our country. So that is the first component.
    The second component is to assist and support political 
transition, and we are doing that and I anticipate we will see 
political transition here in the remaining part of the year. 
And the third real component is the broader, regional piece 
that I have talked about a couple times this morning and 
focusing specifically on Pakistan and the relationship between 
Afghanistan and Pakistan, and we are working very hard to 
facilitate a good bilateral relationship between those two 
countries.
    But the first two components are the ones that I believe at 
the end of 2014, particularly if we stay the course with a 
post-2014 mission, we will be able to look at those who have 
sacrificed over the past 12 years and say what we came up to do 
was establish a stable, secure, unified Afghanistan with 
effective and capable Afghan security forces. And we are doing 
that. And you can see the evidence of it every day in terms of 
increased numbers of Afghan forces that are providing security 
and reduced numbers of coalition forces.
    And I think the elections in 2014 are going to be a 
watershed event. We will have given the people of Afghanistan 
the opportunity to determine their own future, and I think 
being a part of that, as you know from your constituents that 
were part of Afghanistan and Iraq, that matters to us. We 
appreciate, I think, and value democracy as much as anybody, 
and to be a part of that development in Afghanistan, I think, 
is also important.
    So in my mind, at the end of the year, you know, people 
don't use the term ``winning,'' Congressman. When I talk to 18-
, 19-, 22-year-old young men and women that are risking it all 
to perform a mission, I think talking in terms of what winning 
looks like is important. And I can identify those three 
components, and all of them, all of them are achievable in 
2014, and all of them can be secured with a fairly small 
presence post-2014.
    Mr. Gallego. I will tell you, General, as a parent of a 
very young son who is 9, I don't see how some parents, you 
know, sleep with their kids over there. And so I thank you very 
much for doing all that you can to make sure that all of our 
sons and daughters over there are safe and for doing a 
phenomenal job at taking care of them. Thank you for that.
    General Dunford. Thanks, Congressman.
    Mr. Gallego. Mr. Chairman, I yield back.
    Mr. Thornberry. Thank you, General.
    In some ways, it seems to me, we saved the most important 
questions and answers until the end, and I appreciate that very 
much. I know it is always hard for you to get away, but I think 
it was important for the committee and the country to hear your 
straight-up assessment of where things stand these days in 
Afghanistan. Thank you for taking the time to come.
    And Afghanistan may not be in the news as much as it once 
was, but that, in many ways, is a good thing. And due to the 
professionalism and commitment of you and the people who serve 
with you. So thank you. Please pass along our gratitude to them 
as was just expressed, and with that, the hearing stands 
adjourned.
    General Dunford. Thank you.
    [Whereupon, at 11:49 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 13, 2014

=======================================================================

 
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2014

=======================================================================

      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 13, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. We understand that in June 2013 you requested that 
various Army and DOD officials explore the possibility of replacing the 
current LOGCAP cost-plus contract with a fixed-price contract. In your 
letter to the Deputy Secretary of Defense (ATL) as well as the 
Assistant Secretary of the Army (Acquisition, Logistics, and 
Technology) and the Commander, Army Material Command, you cited a 
smaller and more stable footprint as well as a decade of LOGCAP 
experience as rationale for considering a fixed-price contract. We also 
understand that USFOR-A and others were considering a number of options 
for supporting U.S. forces post-2014. These options included using the 
LOGCAP contract as it is presently written, using a fixed-price LOGCAP 
contract, or using a different approach such as having the NATO Support 
Agency provide base life support services. We also understand that as 
of early February a decision on the base life support contract has yet 
to be made.
    Has the decision been made regarding how base life support will be 
provided to U.S forces during Resolute Support? a. If a decision has 
been made, can you please explain what course of action you selected 
and what factors or circumstances led you to select that course of 
action? b. If no decision has been made at this time, what is holding 
up the decision? Specifically, what decisions need to be made prior to 
selecting a base life support course of action? c. Do you have concerns 
that if an alternative to the current LOGCAP cost-plus contract is not 
selected in the near future there will be no alternative but to use the 
current cost-plus contract because of the time it takes to award and 
transition a contract?
    General Dunford. I believe this question would be best answered by 
U.S. Central Command.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. U.S. and coalition forces operate in Afghanistan 
principally in vehicles with armored cabs or mine-resistant vehicles. 
An armored cab was designed and tested for the Medium Tactical Vehicle 
that the U.S. provided to the Afghan National Security Forces (ANSF). 
More than 200 were delivered to our Afghan allies. The armored cab 
solution could potentially be a very cost-effective alternative to 
provide the ANSF ballistic and blast protection. Can you tell me why we 
haven't considered a broader application of this upgrade?
    News reports indicate that the U.S. is not providing the ANSF MRAP 
vehicles that the U.S. has deemed excess because they are too expensive 
for the Afghans to maintain. Is this accurate? If so, can you please 
provide the analysis that was done that arrived at this determination?
    Bottom line, are you satisfied that we are proceeding on the most 
cost-effective and thoughtful approach to provide resources to the 
ANSF?
    General Dunford. Blast and automotive testing for this armored cab 
design of the Medium Tactical Vehicle is still an ongoing effort. We 
have considered a broader application of this armored cab upgrade but 
believe it to be too complex and cost prohibitive to implement at this 
time. Nearly 100% of the vehicles that the coalition has procured for 
the Afghan National Security Forces (ANSF) will have been delivered to 
Afghanistan and fielded by the time the results of blast testing are 
complete. The capabilities provided through the Mobile Strike Force 
Vehicle (MSFV), HMMWV, and Light Tactical Vehicle have been proven over 
the course of the past decade and now must be effectively sustained.
    We are considering providing MRAPs to the ANSF, but a final 
decision has not been made. The resources required to repair, field, 
train, and integrate existing MRAPs adds to the sustainment burden of 
currently fielded ANSF vehicles. In addition to annual MRAP sustainment 
costs, the cost to demilitarize and refurbish the MRAPs before transfer 
must be considered along with the facilities, maintenance and support 
infrastructure, and driver and operator training programs that must be 
developed to support these vehicles.
    We are committed to developing and executing a synchronized 
strategy as we continue to turn our focus to the sustainment of the 
capabilities we have fielded and helped develop in the ANSF. As this 
strategy develops through discussions and the combined effort of our 
Afghan and coalition partners, we continually assess our approach to 
providing resources and equipment to ensure an enduring capability 
within the ANSF.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. President Karzai released 65 detainees from an 
Afghan-controlled prison at Bagram airfield on February 13, 2014. All 
of these detainees were initially captured by U.S. forces and 
subsequently handed over to the Government of Afghanistan, and all of 
them were associated with groups with whom the United States is 
currently fighting in Afghanistan, including the Taliban, Al Qaeda, and 
the Haqqani Network. Some were directly responsible for American 
casualties, and many specialize in IEDs. In addition, some of the 
detainees were linked to terrorist financing.
    It's reasonable to assume that we still have a good number of 
detainees who have not yet been turned over to the Afghans. Whether 
Enduring Security Threats (ESTs)--the highest threat Afghan detainees--
or other categories of detainees, what detainees are currently being 
held, and what is the likelihood that Karzai will seek to release them?
    What will happen to ESTs post-2014, both the ones currently under 
our control, as well as those currently under Afghan control? What will 
happen to other categories of detainees?
    General Dunford. As of 14 March 2014, there are approximately 1170 
Afghan detainees under Afghan control at the Afghan National Detention 
Facility-Parwan (ANDF-P). Of the 1170 detainees under Afghan control; 
621 are in pre-trial confinement and 482 are serving their sentence as 
dictated by trial outcome at the Justice Center in Parwan (JCIP). 
Separately, approximately 50 Third Country National (TCN) detainees 
from 13 countries are under U.S. control at the ANDF-P.
    Of the pre-trial detainees under Afghan control, there are 58 whose 
cases are awaiting adjudication by the Afghan Review Board (ARB). The 
ARB is a non-judicial body established in accordance with the 25 March 
2013 Memorandum of Understanding (MOU) to assist in the legal review of 
criminal case files recently transferred over to GIRoA from U.S. 
control. The ARB has not yet adjudicated these 58 files. Soon after its 
establishment, the ARB fell under malign political influence and 
ultimately made legal decisions that exceeded its mandate. Previously 
the ARB has issued release decisions on over 650 of the 900 detainees 
who fell under its jurisdiction. Many of those who were released by the 
ARB had substantial evidence warranting immediate prosecution or 
further investigation. The ARB will make disposition decisions 
regarding the 58 detainee files followed by adjudication at the JCIP in 
accordance with Afghan law.
    By contrast, current judicial actions by the JCIP have resulted in 
a 74% prosecution rate. Based on his recent statements in the media, 
and past actions, we assess it is possible that President Karzai will 
seek to release more detainees, with the remaining ARB decisions to be 
among the most likely to be released. There are approximately 15 TCN 
ESTs under U.S. control. It is our plan that the 15 TCN ESTs will be 
repatriated to their home countries, tried or released, pending U.S. 
policy guidance. They may also be transferred to Afghan control for 
criminal prosecution or release.
    Excluding the approximately 15 TCN ESTs noted, there are 
approximately 35 additional non-EST TCN detainees under U.S. control. 
It is our plan that these 35 TCNs will be repatriated to their home 
countries, transferred to Afghan control, released, or tried in 
Afghanistan, the U.S., or the home country pending U.S. policy 
guidance.
    Separately, the Afghan government will either criminally prosecute 
or release the approximately 41 ESTs under Afghan control (which are 
part of the 58 pending ARB cases referenced previously). Under the 
March 2013 MOU, the Afghan government committed specifically to the 
continued detention of these 41 ESTs. For Afghan detainees, it is our 
desire that the Afghan government will continue to leverage the JCIP as 
a Central National Security Court. We also intend for the ANDF-P to be 
part of an enduring National Security Justice Center for pre-trial 
confinement, investigation, prosecution, and post-trial incarceration 
of individuals who commit terror and insurgent-related crimes.
    Mrs. Walorski. I am concerned about Iranian activity and influence 
in western Afghanistan. Your predecessor, General John Allen, testified 
before the Senate in 2012 that ``Iran continues to support the 
insurgency and fan the flames of violence.''
    What is Iran currently doing to support the insurgency, whether 
financial support, supplying weapons, providing training and logistics 
support, or direct attacks on U.S. or coalition forces?
    General Dunford. We believe Iran has provided measured assistance, 
weapons, and training to insurgents in Afghanistan, likely since at 
least 2002. Iran has historically backed Tajik and Shi'a groups opposed 
to the Afghan Taliban, but tensions and enmity with the West have 
driven Tehran to provide measured support to insurgents in Afghanistan. 
Over the years, coalition forces have seized several weapons' shipments 
near the Iranian border that were almost certainly of Iranian origin. 
Iran also likely trained insurgents inside Iranian territory. Iran 
calibrates the size and scope of the lethal aid it provides the 
insurgency, likely so the insurgents can target ISAF and Coalition 
Forces, but without endangering the Afghan government.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
